   February 4, 2003




Acquisition


Navy Transition of Advanced
Technology Programs to
Military Applications
(D-2003-053)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

ATD                   Advanced Technology Demonstration
FNC                   Future Naval Capability
IPT                   Integrated Product Team
ONR                   Office of Naval Research
S&T                   Science and Technology
TRL                   Technology Readiness Level
TTA                   Technology Transition Agreement
          Office of the Inspector General of the Department of Defense
Report No. D-2003-053                                               February 4, 2003
   (Project No. D2001AB-0105.001)

           Navy Transition of Advanced Technology Programs to
                          Military Applications

                                    Executive Summary

Who Should Read This Report and Why? Science and technology officials in the
Office of the Secretary of Defense and the Department of the Navy should read this
report because it evaluates the Navy’s current process for enhancing the likelihood that
emerging technology would reach the warfighter.

Background. Congress and DoD officials have voiced concern that technology has not
quickly transitioned to the warfighter. In 1998, the Vice Chief of Naval Operations
instituted the Future Naval Capabilities process to focus the science and technology
investment on achieving future capabilities for Naval forces. The Future Naval
Capabilities process was designed to align and partner the requirements, acquisition, and
science and technology communities to focus on delivering and transitioning priority
Naval capabilities. To help achieve the objective, the Navy funded about 225 separate
advanced technology projects for FY 2002 for a total of $870 million. The audit
examined 39 science and technology projects (33 science and technology products and
6 advanced technology demonstrations) funded with research, development, test, and
evaluation funds; advanced technology development appropriations.

Results. Although the Office of Naval Research created a structure to manage its science
and technology efforts to facilitate the transition of technology, improvements are still
needed. Specifically, while 30 of 33 technologies reviewed did have working-level
integrated product teams, all of the 33 technologies lacked one or more of the elements
for transitioning.

   •   None of the technologies had integrated product teams charters to establish roles
       and responsibilities,

   •   Not all recipients were included in the working-level integrated product teams,
       documentation of integrated product teams’ issues and actions were limited, and
       agreements on technology readiness levels and exit criteria were lacking, and

   •   None of the five acquisition recipients had identifiable funding for technologies
       scheduled to transition in FYs 2002 and 2003.

Similar coordination problems were identified for the advanced technology
demonstration projects included in this review.

Unless the Office of Naval Research improves its coordination with plan recipients by
establishing working-level integrated product teams, and evaluates whether near-term
planned transitioning for products should continue if transition funds are lacking, the
Navy cannot make fully informed and prudent decisions on whether continued
investment is warranted (finding A).

The Office of Naval Research did not use the performance appraisal process effectively
to assist in achieving DoD performance goals and its corporate goals of transitioning
technology. The incorporation of technology transition in performance appraisal plans of
product managers would provide accountability and contribute to the likelihood of
technology transitioning (finding B).

The Office of Naval Research did not have an effective management control program to
evaluate the technology transition operations within the Science and Technology
Directorate. Management needs to establish measurable management controls, direct the
performance of internal reviews, and provide management control training so that annual
statements of assurance are based on reliable assessments of the science and technology
process, and risks and controls can be identified (finding C).

Management Comments and Audit Response. The Deputy Assistant Secretary of the
Navy for Planning, Programming and Resources provided comments to the draft report
and concurred with most of the recommendations. The Deputy Assistant Secretary
nonconcurred with the recommendation to review the advanced technology development
efforts for five unfunded science and technology projects scheduled for near-term
transition and discontinue product development for technologies that do not have formal
acquisition program support including identifiable transition funding. See the Finding
section of the report for a discussion of management comments and the Management
Comments section for the complete text of the comments.

Management comments were generally responsive to the report and its recommendations.
However, comments in response to the recommendation to review advanced technology
development projects that lack formal acquisition program support were not fully
responsive. Continued expenditure of advanced technology development funds on
technologies that do not have coordinated paths or plans for transitioning to acquisition
programs ignores lessons learned and training on successful science and technology
transitioning provided to Department officials. Near-term transitions that do not have the
necessary commitment by the scheduled receiving program should be reviewed to
determine whether continued development is warranted. Although the Deputy Assistant
Secretary concurred with the recommendations addressing technology transitioning as a
performance elements in the appraisal process and improving the management control
program, the proposed actions do not adequately address the intent of the
recommendations. Accordingly, we request additional comments from the Chief of
Naval Research on the final report by March 6, 2003.




                                             ii
Table of Contents
Executive Summary                                                               i

Background                                                                     1

Objectives                                                                     3

Findings
     A. Navy Science and Technology Process                                     4
     B. Performance Assessments                                                14
     C. Effectiveness of the Management Control Program                        18

Appendixes
     A. Scope and Methodology                                                  24
          Management Control Program Review                                    25
          Prior Coverage                                                       25
     B. Technology Readiness Levels and Their Definitions                      27
     C. Summary of Advanced Technology Development Products Reviewed           28
     D. Report Distribution                                                    39

Management Comments
     Office of the Assistant Secretary of the Navy for Research, Development
       and Acquisition                                                         41
Background
    Defense Acquisition. The Deputy Secretary of Defense issued interim
    acquisition guidance on October 30, 2002. The interim acquisition guidance
    states that science and technology (S&T) programs shall address user needs;
    maintain a broad-based program spanning all Defense-relevant sciences and
    technologies to anticipate future needs and those not being pursued by civil or
    commercial communities; preserve long-range research; and enable rapid
    successful transition from the S&T base to useful military products. Advanced
    technology shall be integrated into producible systems and deployed in the
    shortest time practicable. Teaming among warfighters, users, developers,
    acquirers, technology experts, industry, testers, budgeting officials, and system
    maintainers shall begin during requirements definition.

    Science and Technology Guidance. An affordability task force chartered by the
    Director for Defense Research and Engineering issued a handbook and the
    Deputy Under Secretary of Defense for Science and Technology issued a guide to
    the Military Departments and Defense agencies concerning practices that they
    believed, if instituted, would assist in transitioning technology. In addition, in
    response to congressional concerns that the DoD had not been successful in
    transitioning technology, the Under Secretary of Defense for Acquisition,
    Technology, and Logistics issued a report to Congress identifying why
    technology was not transitioning.

            Addressing Affordability in Defense Science and Technology (S&T):
    A Handbook for S&T Managers. In October 1999, the DoD S&T Affordability
    Task Force endorsed a Handbook that stresses the importance of early
    involvement of all candidate acquisition programs in advanced technology efforts.
    The Handbook states that early involvement of advanced technology candidate
    acquisition programs in research development, design, test planning,
    manufacturing, training, logistics, financing, and contracting are essential to
    address key issues that lock in a majority of the life-cycle costs of programs. The
    Handbook states that management tools for ensuring effective technology
    transitioning include establishing integrated product teams (known as IPTs),
    creating IPT charters, identifying quantitative metrics and key exit criteria, and
    developing a formal transition plan that is officially signed by the “customer”
    (usually an acquisition community member) and the technology manager.
    Additional management tools include preparing an approved memorandum of
    agreement or understanding that includes roles and responsibilities of the various
    participants and a funding strategy, which commits the acquisition community to
    transition the technology.

            Technology Transition for Affordability: A Guide for S&T Program
    Managers. In April 2001, the Deputy Under Secretary of Defense for Science
    and Technology issued a Guide to provide S&T managers with strategies to
    transition technology to the acquisition community. The Guide states that the
    transition of technology should be timely (get the technology in the hands of the
    warfighter as soon as possible) and cost-effective (provide the best technology at
    the lowest possible cost). The Guide states that a key strategy for transitioning


                                         1
technology is early coordination between the S&T project manager and the
receiving acquisition manager to promote a mutual understanding between the
two parties.

The Guide provides that IPTs should include the S&T product manager, the S&T
contractor, the acquisition manager and the respective contractor(s), and test and
evaluation representatives. An IPT should be formed early in the life cycle of a
technology’s development to address key issues that can greatly affect life-cycle
cost and the eventual acceptance and implementation of the technology. Issues
that the IPT should address include defining and agreeing upon quantifiable
metrics, such as cost, performance, and schedule; exit criteria; and the maturity of
the technology at transition identified as technology readiness levels (TRLs) (the
TRLs are described in Appendix B). The Guide states that those issues and others
should be agreed upon in formal documentation such as memorandums of
agreement or understanding and technology transition plans.

        Under Secretary of Defense for Acquisition, Technology, and Logistics
Report to Congress. In June 2001, the Under Secretary of Defense for
Acquisition, Technology, and Logistics provided a Defense Advanced Research
Projects Agency report on technology transitioning to congressional defense
committees. The report provided Congress with the results of a review of the
transition of research to the Military Departments from the Defense Advanced
Research Projects Agency and addressed issues that were also applicable for the
Army transition of research technology to acquisition program managers and,
ultimately, to the warfighter. The report cited a key reason for difficult
technology transition was the need for collaboration among three diverse groups:
the S&T researcher, the acquisition program manager, and the military user.
Effective transition requires the groups to work together as a team, which is
frequently a difficult issue. In addition, for a technology transition to be
successful, the acquisition program manager’s prime contractor must support the
technology insertion, and the technology must demonstrate a greater return than
the existing capability.

Future Naval Capabilities Process. In 1998, the Vice Chief of Naval
Operations instituted the Future Naval Capabilities (FNCs) process to focus the
S&T investment on the achievement of future capabilities for Naval forces. The
Navy adopted the process in November 1999. The FNC process was designed to
align and partner the requirements, acquisition, and S&T communities to deliver
and transition priority Naval capabilities within 1 to 6 years. At the center of the
FNC process, an IPT for each FNC brings together key members at the Flag
Officer or Senior Executive Service level from the requirements, acquisition, and
S&T communities. The FNC process was designed to bridge the gap between the
acquisition community and the Office of Naval Research (ONR).

The Vice Chief of Naval Operations, the Assistant Commandant of the Marine
Corps, and the Assistant Secretary of the Navy for Research, Development, and
Acquisition approved 12 FNCs that concentrate the Navy’s S&T resources on
achieving the highest priority capabilities. The FNC process formally began in
FY 2002.



                                     2
Objectives
    The audit objective was to determine whether the Navy was successful in
    transitioning advanced technology projects to military applications. Specifically,
    we determined whether the Navy had established a process to successfully
    transition technology. We also evaluated management controls at ONR as they
    relate to the audit objective. See Appendix A for a discussion of the audit scope
    and methodology, the review of the management control program, and prior
    coverage related to the audit objectives.

    The audit examined 39 S&Ts (33 S&T products and 6 ATDs) funded from the
    advanced technology development budget activity within the Navy research,
    development, test, and evaluation funds; advanced technology development
    appropriation. The 39 S&T efforts had expenditures of $152 million in FY 2002
    and planned funding of $430 million through FY 2007. The audit examined
    whether working-level integrated product teams were established, whether the
    teams included the planned primary and secondary recipients, whether charters
    were established for the teams, whether official memorandums of understanding
    on technology development were established, and whether agreements included
    TRLs and exit criteria.




                                         3
            A. Navy Science and Technology Process
            While executive-level IPTs were established for the 12 FNCs,
            improvements in the ONR coordination process are needed at the
            technology working level and at the acquisition program manager level.
            Specifically, although 30 of 33 technologies did have working-level IPTs,
            other critical elements for transitioning were missing:

                •   Working-level IPTs did not establish charters to identify roles and
                    responsibilities,

                •   Working-level IPTs did not include all planned acquisition
                    recipients,

                •   Documentation of IPT issues and action items are needed to
                    prevent development problems resulting from key personnel
                    changes,

                •   Formal agreement on TRLs and exit criteria were not established
                    for almost half of the technology recipients, and

                •   None of the five acquisition recipients identified funding for
                    technologies scheduled to transition in FYs 2002 and 2003.

            Similar coordination problems were identified for the six ATDs also
            included in this review. These conditions exist because Navy S&T
            management did not require formal working-level coordination between
            acquisition recipient officials and Navy S&T officials as was advocated in
            the Deputy Under Secretary of Defense for Science and Technology
            guidance. In addition, the ONR had not established minimum standards
            for technology development documentation. As a result, unless measures
            are undertaken to effectively coordinate the 39 technologies that have
            planned additional funding of $430 million, the Navy cannot make fully
            informed and prudent decisions on which projects warrant continued
            investment.

Navy Advance Technology Program
     FNC Planning and Execution. To maximize the benefit to the warfighter, ONR
     initiated the FNC process during FY 1998. The ONR action required shifting the
     emphasis from conducting S&T research on very long-term development of high-
     risk technologies to developing focused S&T products that are selected, managed,
     and demonstrated to meet pre-established exit criteria within 7 years. Long-term,
     high-risk research continues in the basic and applied research categories.

     The Navy Science and Technology Corporate Board established 12 FNCs that
     represent the highest priority performance and systems to be delivered to the




                                          4
    warfighter by 2010. FNCs were to be managed by using IPTs. The IPTs for the
    FNCs function like a corporate board and are composed of executive-level
    officials from the Navy or Marine Corps.

    The goal of each FNC was to provide significant S&T advances in products and
    establish deliverables with defined demonstrations, culminating in technology
    transitions. S&T products are the fundamental elements of the FNCs. S&T
    product managers were to establish exit criteria to support transition. Achieving
    the exit criteria represents development success. Exit criteria act as a contract
    between the S&T developer and the customer.
    To assist in achieving the goals of the FNC process, ONR established the require-
    ment to develop business plans at the FNC level. The business plans supported
    product development and were designed as a management tool for the FNC to
    maintain program control at the product level and document the expected
    performance ranges and conditions of the exit criteria for the emerging S&T
    effort.

Technology Development Guidance
    The Deputy Secretary of Defense interim guidance states that S&T programs shall
    address user needs; maintain a broad-based program spanning all Defense-
    relevant sciences and technologies to anticipate future needs and those not being
    pursued by civil or commercial communities; preserve long-range research; and
    enable rapid, successful transition from the S&T base to useful military products.
    The Handbook provides elements of best practices and procedures captured in the
    form of criteria for S&T managers. These criteria are endorsed by the Deputy
    Under Secretary of Defense for Acquisition and Technology Affordability Task
    Force that was charted by the Director for Defense Research and Engineering to
    develop solutions on how to strengthen DoD S&T programs.

Navy Science and Technology Products Reviewed
    The ONR needs to strengthen its S&T coordination with planned acquisition
    program recipients. The Handbook and Guide recommend the establishment of
    memorandums of agreement or understanding with the acquisition program
    manager(s), including agreements on TRLs and exit criteria, to ensure that
    acquisition programs have the necessary funding for S&T integration. In addition,
    ONR should require S&T product managers to document IPT issues and action
    items to prevent development problems resulting from key personnel changes.

    The audit examined 39 S&Ts (33 S&T products and 6 ATDs) funded with
    research, development, test, and evaluation funds; advanced technology
    development appropriations with expenditures of $152 million in FY 2002; and
    planned funding of $430 million through for FY 2007. The 33 products had
    35 primary recipient acquisition programs (1 product had two additional primary
    recipients) and the 6 ATDs had 6 candidate programs. The table summarizes the



                                         5
audit results by S&T product and ATD, using the recommended business
practices in the Handbook and Guide.


               Summary of Science and Technology Products and
             Advanced Technology Demonstrations (ATDs) Examined
                 (ratio shows positive responses to total examined)1

                                  Number of Occurrences            Percent of Occurrences
                                   33 Products2 6 ATDs3             33 Products 6 ATDs
Integrated Product Team
at the product level
 Team established                   30 of 33        3 of 43               91            75
    Charter established              0 of 30        0 of 3                 0             0
    Acquisition program
     manager included               30 of 354       3 of 3                86          100
    Acquisition program
     prime contractor
     included                       21 of 255       3 of 3                84          100

Acquisition
Program Manager
 MOA/MOU/TTA                        23 of 354       3 of 4                66            75
    Exit TRLs formally
     agreed                         12 of 35        0 of 4                34             0
    Exit criteria formally
     agreed                         20 of 35        2 of 4                57            50

Funding for FYs 2002
and 2003 transitions by
the acquisition recipient             0 of 5        0 of 0                 0             0
Appendix C provides the supporting detail to the table by FNC.

1
  Draft documents were not considered as a positive response.
2
  Reviewed 33 products: 14 of Knowledge, Superiority and Assurance; 6 of Littoral
  Antisubmarine Warfare; 5 of Organic Mine Countermeasures; and 8 of Fleet Force Protection.
3
  We reviewed six ATDs. Of the six ATDs, four were scheduled for transitions to acquisition
  programs. Two were scheduled for transition to an FNC, but with the same manager. As such,
  no coordination between parties is necessary for these two efforts.
4
  Thirty-three products identified 35 primary acquisition program recipients for the developing
  technologies (1 product in Fleet Force Protection had 2 additional prime recipients identified).
  Thirty of the 33 recipients were included in the working-level IPTs.
5
  Of the 30 acquisition program recipients included in working-level IPTs, 25 had contractors
  identified. Twenty-one of the 25 contractors were participating in the working-level IPTs.



                                            6
Integrated Product Teams
    The Deputy Secretary of Defense issued interim acquisition guidance on
    October 30, 2002. The interim acquisition guidance states that IPTs will be used.
    IPTs will include teaming among warfighters, users, developers, acquirers,
    technology experts, industry, testers, budgeting officials, and system maintainers.
    Also, the Handbook and Guide cite best business practices including
    establishment of working-level IPTs and IPT charters. To be effective, IPTs must
    include the acquisition program manager(s) and have an established charter. The
    acquisition program manager(s) prime contractor should also be considered for
    IPT participation, if appropriate, to facilitate the technology integration.

    Integrated Product Teams Established. The Handbook and Guide recommended
    the establishment of IPTs at the working level for all the S&T products and ATDs.
    ONR officials established working-level IPTs for 30 of the 33 products and for all the
    ATDs. Thirty of the 33 primary technology recipients were participating in a
    working-level IPT to some degree. In addition to the primary recipients,
    11 technologies had secondary recipients that represent other acquisition programs
    identified by ONR officials that also are candidate systems for the emerging
    technologies. However, ONR documentation showed that although 11 additional
    secondary acquisition programs were planned to receive the technology, only
    1 participated in the IPT. Although three of the four ATDs had established a working-
    level IPT, one of the three did not have participation by the primary recipient. For
    secondary recipients of the ATD technologies, one of the three were participating in
    the working-level IPTs.

    The Handbook and Guide do not distinguish between IPT participation at the primary
    and secondary level. Although the focus of the developing technology should be at the
    primary recipient level, secondary recipient participation in the working-level IPT is
    important to preclude avoidable transition cost drivers to the secondary recipient. It
    would be desirable to include secondary participants in technology meetings because
    both primary and secondary recipients are stakeholders in the technology
    development, and primary recipient decisions may affect the secondary recipient’s
    integration of the technology.

    Integrated Product Team Charters. In addition to the establishment of IPTs,
    the Handbook and Guide recommend the establishment of IPT charters. The
    Handbook states that IPT charters provide the best way to minimize team
    misunderstanding. The Handbook provides that each charter should include:

           •   The mission and objectives of the team,

           •   The metrics to evaluate the team’s progress,

           •   The scope of the team’s responsibility,

           •   The relationship of the team with other teams,

           •   The authority and accountability of the team,


                                         7
       •   The resources available for the team, and

       •   A team membership list.

Although the IPT charters to identify the roles and responsibilities of the
participants have been established at the executive FNC level, none of the S&T
products or ATDs had established IPT charters.

For the 30 IPTs established for the 33 products, 29 were informal IPTs. The IPTs
usually had no records of frequency, attendance, decisions, or outcomes of
meetings; as a result, the audit could not determine the viability of the IPTs.
Specifically, 21 IPTs did not document discussions or decisions resulting from the
meetings.

The lack of documentation for IPT meetings may provide a significant risk in the
orderly continuation of S&T efforts because 25 percent of ONR S&T personnel
will be eligible to retire during FYs 2002 through 2004. In addition, ONR
officials stated that S&T product development positions were also filled with
detailees from field offices for up to 2 years. The combination of key personnel
changes through retirements, detailees returning to the field offices, and the lack
of documentation for IPT action items and decisions pose a development risk
because of the potential loss of corporate knowledge. The lack of IPT
documentation occurred because ONR did not provide guidance to S&T managers
on the need for creating records of IPT meetings and results, and ONR
management’s belief that documentation should be kept to a minimum to reduce
administrative burdens. This risk is avoidable by requiring the documentation of
significant program decisions and development issues. ONR does not require the
establishment of IPT charters to document the roles and responsibilities of the
ONR or acquisition officials or require the establishment of a record of issues,
decisions, or action items resulting from the IPTs.

Acquisition Program Prime Contractor. One goal of the Navy S&T program is
to transition technology to an acquisition program and, subsequently, to the
warfighter. The Guide and Handbook recommend that the acquisition program
prime contractor participate in the IPT to facilitate the integration of the evolving
technology into the receiving platform. The 30 products that established IPTs had
33 primary and 11 secondary planned technology recipients. The 33 primary
recipients had 25 prime contractors participating in their acquisition program.
Prime contractor participation in the working-level IPTs varied significantly
between primary and secondary recipients in that 21 of the 25 primary recipients’
contractors participated in IPTs, while none of the secondary recipients’ prime
contractors participated.

Of the three ATDs that established an IPT, all primary recipient acquisition
programs had prime contractor participation in the IPT, but only one of the
three secondary recipients had their prime contractor participating. The Navy had
no official S&T guidance that discusses representation in IPTs for products or
ATD efforts.




                                      8
Role of Acquisition Program Managers
    To improve the technology transition rate, acquisition program managers must
    make a firm commitment to transition the technology to their programs. The
    commitment should include a formal and up-to-date memorandum of agreement
    or understanding between the S&T product manager and the acquisition program
    manager(s). Each memorandum should specify the relationships and the
    respective responsibilities of the S&T product manager and the receiving
    acquisition program manager(s). The agreement should address system
    requirements, funding, personnel support, exit criteria, and TRLs. Within the
    ONR, technology transition agreements (TTAs) represent and function as the
    memorandum of agreement or understanding. The TTAs represent agreement
    between the product manager and the planned recipient on TRLs and exit criteria.
    Although ONR guidance requires the establishment of TTAs, to include
    agreement on TRLs and exit criteria, the guidance was not always followed.

    Technology Transition Agreements. The ONR issued memorandum guidance
    in November 2001 that required the development of TTAs as part of the FNC
    business and execution plans. Each advanced technology development product
    was to have a TTA that represented agreement between the ONR and the
    receiving acquisition program manager(s) on the development of the technology
    for transitioning and the exit criteria. For the 33 products, ONR identified
    35 primary and 11 secondary recipients for the emerging product technologies.
    Formal TTAs were established for 23 of the 35 primary acquisition programs and
    2 of the 11 secondary acquisition programs. The four ATDs had four primary and
    three secondary recipients for the technologies and formal agreements were
    established with three of the primary and two of the secondary recipients.

    Technology Readiness Levels. DoD adopted TRLs in response to a General
    Accounting Office Report, “Best Practices: Better Management of Technology
    Development Can Improve Weapon System Outcomes,” issued in July 1999.
    TRLs are an assessment of the technical maturity of an S&T product or ATD. In
    July 2001, the Deputy Under Secretary of Defense for Science and Technology
    issued a memorandum to the Military Departments and Defense agencies that
    emphasized the development of TRLs for S&T efforts. The TRLs range from one
    through nine, with more mature S&T efforts having a higher TRL and a lower
    risk for the acquisition program. The ONR had not established TRLs with many
    of the planned primary or secondary technology recipients. Of the 35 primary
    recipients, only 12 agreed to the TRLs, and no agreements were established with
    the 11 secondary recipients.

    The four ATDs had four primary and three secondary recipients for the
    technologies. None of the ATDs had agreements on the TRLs for the emerging
    technologies.

    Exit Criteria. The exit criteria for each product describe the current capabilities,
    expected performance parameters and conditions of measurement, the range of
    acceptable performance improvements, and test conditions and verification
    methods for measuring performance. The S&T product manager and the


                                          9
    acquisition program managers, in collaboration with the IPT, develop exit criteria
    that are appropriate for transitioning the technology. The 33 products had
    35 primary and 11 secondary technology recipients. Agreement on the exit
    criteria was established for 20 of the 35 primary and for 1 of the 11 secondary
    recipients.

    The four ATDs had four primary and three secondary recipients for the
    technologies. Exit criteria agreements was made with two of the primary and one
    of the secondary recipients.

Acquisition Program Funding
    The DoD research, development, test, and evaluation budget is divided into
    seven budget activities. The S&T community receives funding from the first
    three budget activities only: basic research, applied research, and advanced
    technology development. The acquisition community is funded with three budget
    activities: demonstration and validation, engineering and manufacturing
    development, and operational systems development. A seventh budget activity,
    management support, is directed toward installations or operations required for
    general research and development use. S&T products are not funded from the
    budget activity fund appropriated for the acquisition community, and acquisition
    programs are not funded from the budget activity fund appropriated for the S&T
    community. The separation of research, development, test, and evaluation
    funding between the S&T and acquisition communities and the shrinking of the
    research, development, testing, and evaluation budget make coordination between
    the S&T product managers and acquisition program managers very critical. If
    S&T products and ATDs are critical to future and existing weapon systems, and
    the technology is successfully demonstrated using coordinated TRLs and exit
    criteria, the acquisition community must set funds aside for transitioning.

    Acquisition program managers were not providing the funding for technology
    transitioning. For the 33 products reviewed, 5 products were scheduled to
    transition to the acquisition program manager during FY 2002 or FY 2003. Of
    the 5 products, none of the acquisition program managers had identifiable funds
    for the transitioning technologies. Acquisition program managers should be
    required to specifically identify funds for the emerging technologies particularly
    for near-term transitions to ensure that funds are available and to determine the
    adequacy of the funding as a requirement for continued expenditure of advance
    technology development funds by ONR. Without adequate funding for
    technology transitioning, ONR will not be able to determine whether continued
    investment in S&T products is beneficial or whether the limited research funds
    should be directed to other more promising technology transitioning candidates.




                                         10
Recommendations, Management Comments, and Audit
  Response
    A. We recommend that the Chief of Naval Research, for advanced
    technology development efforts:

           1. Require the establishment of integrated product teams that may
    include representatives from the primary and secondary candidate
    acquisition program office(s) and the acquisition program office prime
    contractor(s), where applicable.

    Management Comments. The Deputy Assistant Secretary of the Navy for
    Planning, Programming and Resources partially concurred with the
    recommendation. The Deputy Assistant Secretary stated that the Navy is
    implementing the first part of the recommendation to include target acquisition
    program offices as IPT members. The Deputy Assistant Secretary stated that all
    FNCs have IPTs at the program level and are forming IPTs at each project level.
    Further, it is imprudent to require IPTs in every case, but exceptions should and
    will be rare, justified, and documented.

    The Deputy Assistant Secretary stated that the inclusion of prime contractors in
    all IPTs is not executable and potentially harmful to the acquisition of new
    technologies because the IPT is a forum for discussion of Government-only
    issues. The Deputy Assistant Secretary stated that prime contractors are included
    in IPTs when the program manager determines it is appropriate. The Deputy
    Assistant Secretary suggested that the recommendation be modified to include the
    phrase “with the acquisition office’s prime contractor(s) when desired by the
    acquisition program manager.”

    Audit Response. The comments are responsive to the recommendation. We
    agree that the inclusion of the acquisition program office prime contractor in all
    cases may not be appropriate and, as such, the recommendation included the
    phrase “where applicable.” As a technology develops, the S&T manager and
    officials receiving the technology need to evaluate whether the inclusion of the
    prime contractor is warranted when technology integration considerations need to
    be addressed. Involvement of the acquisition prime contractor is particularly
    important when the acquisition prime contractor is different than the ONR
    contractor developing the emerging technology because integration technology
    issues may exist. The actions discussed in the Deputy Assistant Secretary’s
    comments indicated that the inclusion of the acquisition prime contractor will be
    actively considered and the inclusion, where appropriate, will occur.




                                        11
       2. Require the establishment of formal memorandums of agreement
or understanding and technology transition agreements between the science
and technology manager and candidate acquisition program manager(s).
The establishment of formal agreements should be a requirement for
continued research, development, test, and evaluation funding.

Management Comments. The Deputy Assistant Secretary concurred and stated
that all FNCs will have formal memorandums of agreement and that ONR is
implementing a requirement for memorandums of agreements at the project level.
The Deputy Assistant Secretary stated that it is imprudent to require a
memorandum of agreement in every ATD project, but the inability to reach an
agreement with an acquisition program managers becomes an indicator of
transition problems as a project matures.

       3. Review the technology paths or plans for the five unfunded science
and technology products that are scheduled to transition in FYs 2002 and
2003 and consider discontinuing product development that does not have
formal acquisition program support with identified funding.

Management Comments. The Deputy Assistant Secretary nonconcurred and
stated that the intent of the recommendation goes beyond the scheduled transition
in FYs 2002 and 2003 in that the principle should be applied in future cases. The
Deputy Assistant Secretary stated that the Navy agrees with concerns that the
Director, Defense Research and Engineering expressed to the Deputy Under
Secretary of Defense for Acquisition, Technology, and Logistics in response to a
similar recommendation on Army research programs (Inspector General, DoD,
Report No. D-2002-107, “Army Transition of Advanced Technology Programs to
Military Applications,” June 14, 2002). The Deputy Assistant Secretary’s
comments referred to statements by the Under Secretary of Defense for
Acquisition, Technology, and Logistics that to bring transformational
technologies to operating forces depends on an acquisition environment that
fosters efficiency, creativity, and innovation to demonstrate unproven
technologies and explore risk mitigation before an acquisition program commits
to a technology. The Deputy Assistant Secretary added that the Chief of Naval
Research has no authority to compel program managers to identify transition
funding and that all ATD programs that had not already satisfied the criteria for
acquisition would have to be discontinued to satisfy the recommendation. Such
an action would severely hamper ONR efforts to provide innovative solutions and
transformational naval capabilities.

Audit Response. Management comments were not fully responsive. We revised
the recommendation based on the comments. The report of the Under Secretary
of Defense for Acquisition, Technology, and Logistics to Congress, in June 2001,
cited that a key reason for difficulty in technology transitions was the need for
collaboration among three diverse groups: the S&T researcher, the acquisition
program manager, and the military user. The Under Secretary’s report stated that
effective transitions require the groups to work together as a team, which is
frequently difficult because of their diversity. The intent of the recommendation
was to address the five near-term technologies in question. The audit results for
the five near-term technologies identify that coordination needed to be improved


                                   12
and that funds necessary for technology transition were not available. We agree
with the Under Secretary’s comments that an acquisition environment that fosters
efficiency, creativity, and innovation is necessary before an acquisition program
commits to a technology. However, the five technologies in question were in
development for several years with development participation by the planned
user. The Navy needs to consider whether continued expenditure of ATD funds
on technologies scheduled for near-term transition to acquisition programs is
prudent if the necessary funds to continue the required development are not
available.
Although the Chief of Naval Research has no authority to compel program
managers to identify transition funding, he does have the responsibility to review
technology paths and plans for technology products to ensure viability, to identify
whether the necessary transition funds are available, and to determine whether
continued expenditure of ATD funds is appropriate when technology transitioning
is questionable. With limited S&T financial resources, it is prudent to align S&T
efforts to technologies that are more likely to result in successful transitions. The
Handbook and Guide, as discussed in this report, emphasize that successful
transitions require commitment from all parties. Coordination and commitment
are also stressed in the Defense Systems Management College training course,
“Program Management for S&T Manager” STM 301, formally known as
“Technology Insertion in Defense Systems Acquisitions.” We believe that
continued expenditure of ATD funds on technologies that do not have coordinated
paths or plans for transitioning to acquisition programs ignores lessons learned
and training on successful S&T transitioning provided to Department officials.
Successful transitioning requires coordination and funding considerations through
formal agreements with candidate acquisition program managers. The
recommendation was not intended to subject ATDs to the milestone review
process used for acquisition programs. We request that the Navy review the
technology path or plans for the five unfunded S&T products, determine what
action should be taken and provide additional comments to the final report.




                                     13
           B. Performance Assessments
           The performance appraisal process was not effectively used as a
           management tool to assist in achieving DoD performance goals and the
           ONR corporate goals of transitioning technology. This condition exists
           because the ONR did not incorporate performance goals necessary for
           successful technology transitioning into the S&T product managers’
           performance plans. As a result, the ONR did not fully apply the Deputy
           Under Secretary of Defense for Science and Technology’s best practices
           and Navy S&T managers were not held accountable for transition of
           technology.

Background
    Deputy Under Secretary of Defense for Science and Technology. The Deputy
    Under Secretary of Defense for Science and Technology issued a Handbook to the
    Military Departments and Defense agencies on practices that, if instituted, would
    assist in achieving the DoD goal for transitioning technology. ONR established
    corporate goals to be used as a performance benchmark that included inserting
    technology in naval operations.

           Addressing Affordability in Defense Science and Technology (S&T):
    A Handbook for S&T Managers. In October 1999, the DoD S&T Affordability
    Task Force issued a Handbook that stresses the importance of involving all
    candidate acquisition programs, that is, the acquisition program managers, in
    developing research. As described in the Background of this report, the
    Handbook emphasizes close coordination with technology recipients. The
    Handbook also states that one of the keys to successful transitioning is
    implementing an S&T personnel assessment process that is based on transitioning
    and affordability, in addition to individual technical achievements and publishing
    technical papers.

            ONR Corporate Goals. The ONR FY 2002 corporate goals, issued on
    October 23, 2001, continued the theme of goals established for FY 2001. The
    corporate goals established the basis for the ONR senior executive service
    objectives and performance evaluation and provided a benchmark for establishing
    performance objectives and assessments for all personnel. The corporate goals
    identified four broad areas: programmatic, personnel, financial, and business
    practices. The programmatic area includes the attribute to advance development
    leading to products that transition to the acquisition community for insertion into
    naval operations.

Performance Plans
    The personal performance plans for the ONR science and engineering senior
    executive service and product managers did not include adequate S&T
    performance requirements necessary to enhance technology transitioning.


                                        14
Examination of performance plans for FNC senior executive service (known as
Level 4) and product managers (known as Level 3) identified critical elements in
four major areas; program planning and leadership, program liaison and
teamwork, program execution, and supervision.

        Program Planning and Leadership. The program planning and
leadership critical performance element for senior executive service and product
managers included three broad subcategories: planning scope and impact,
program innovation, and technical credibility. The planning scope and impact
subcategory focuses on providing leadership in conceptualization and definition
of technical areas with anticipated Naval needs. Program innovation requires the
identification of promising S&T, programmatic, or organizational concepts of
new approaches. Technical credibility means being recognized as an expert in a
technical application important to ONR.

        Program Liaison and Teamwork. The senior executive service and
product managers’ critical performance element for program liaison and
teamwork included the categories of communication and interaction, advocacy
and integration, and corporate participation. Communication and interaction
involve maintaining communications external and internal to DoD on product
areas of ONR. Advocacy and integration focuses on collaborating with a wide
variety of S&T experts to influence investments that meet ONR product areas or
strategic goals. Cooperative participation involves fostering successful working
relationships and consulting with higher-level officials on complex issues.

         Program Execution. The senior executive service and product managers’
critical performance element for program execution had two subcategories: asset
management and program assessment and documentation. Asset management
includes defining near-term and long-term asset requirements and managing
overall program assets (people, contracts, funding, and equipment). The program
assessment and documentation subcategory includes defining and monitoring
broad corporate metrics for measuring program success in meeting ONR needs,
integrating new information technologies or business practices to achieve
enhancement, and establishing and implementing effective processes for
monitoring and assessing whether the quality of program research efforts are
consistent with the ONR corporate metrics framework.

        Supervision. The senior executive service and product managers’ critical
performance element for supervision had three subcategories: organizational
development, performance management, and workforce development.
Organizational development includes establishing an infrastructure for multiple
work units or teams to achieve mission and program goals, promoting best
practices in organization development, and attracting high performing scientists
and engineers. Performance management involves establishing organizational
goals and objectives, internal controls, and performance management and
incentive techniques that monitor achievements and provide recognition. The
workforce development subcategory includes mentoring for career growth,
developing successful technical and leadership team members, encouraging
continuous learning, and coaching subordinates.



                                    15
    The inclusion of program planning and leadership, program liaison and teamwork,
    program execution, and supervision are all important performance elements for
    the product managers; however, the performance elements did not emphasize the
    importance of advanced technology development transitioning. The inclusion of
    a performance element for technology transitioning and the attributes for
    coordination and technology transitioning identified in the Deputy Under
    Secretary of Defense for Science and Technology Handbook and Guide would
    help highlight that proven technology must transition to the warfighter.

    Although the ONR performance plans provide for tailoring performance
    expectations to address specific technologies that product managers are
    responsible for, according to ONR officials, none of the performance plans were
    tailored to include expected technical accomplishments during the performance
    period. The performance standards did address achieving ONR goals, but such a
    generic standard lacks the specificity and the ability to measure achievement of
    goals and measures at the individual level. The incorporation of specific,
    expected product achievements such as reaching a technical milestone, meeting a
    product timeframe schedule, establishing and using working-level IPTs with all
    planned users (as opposed to only at the FNC level), or achieving a technology
    transition to the acquisition community would be a better measure of product
    managers’ performance. The inclusion or referencing of expected performance
    elements would assist in achieving the ONR corporate goals by providing a link
    between performance assessments and technology transitioning and would hold
    Navy S&T managers accountable for transition performance.

Recommendation, Management Comment, and Audit
  Response
    B. We recommend that the Chief of Naval Research require that the
    personnel performance plans for product managers responsible for advanced
    technology development-funded programs explicitly require a supervisor’s
    assessment of the manager’s performance with planned technology users.
    The performance plans should include performance assessments for
    establishment of working-level integrated product teams with all planned
    (primary and secondary) technology users, creation of integrated product
    team charters, coordination and acceptance of quantitative metrics and key
    exit criteria with all planned users, development of transition plans that are
    formally agreed to by all planned users, and development and maintenance
    of up-to-date memorandums of agreement or understanding.

    Management Comments. The Deputy Assistant Secretary concurred and stated
    that ONR is revising its personnel performance system with planned
    implementation in FY 2004 to contain a critical element for Program Planning
    and Leadership. The Program Planning and Leadership performance element
    would require “working results in significant new scientific and/or technical
    results as well as applications or other outcomes that significantly expand the




                                       16
future capabilities of the Navy and Marine Corps.” The Deputy Assistant
Secretary stated, in addition, that ONR has begun a database of organizational
metrics, which includes transitions as a major indicator of success.

Audit Response. The Deputy Assistant Secretary’s comments are not fully
responsive to the recommendation. The recommendation requires that technology
transition be identified as a performance element, with specific actions to be used
as measures of product managers’ performance to enhance technology transitions.
The Army has agreed to add technology transition as an element to the program
managers’ performance plans and the Air Force performance plans specifically
addresses technology transition as an element. However the Navy comments
describe a performance system that is generic and does not address the specific
levels of performance from product managers, such as establishing IPTs,
coordinating quantitative metrics and key exit criteria, developing transition
plans, and maintaining current memorandums of agreement or understanding. We
believe the inclusion of these specific elements in performance plans are
necessary to enhance the likelihood of technology transitions. We request
additional management comments to the final report that provide more definitive
actions related to the recommendation.




                                    17
           C. Effectiveness of the Management
              Control Program
           The ONR did not effectively use the management control program as a
           management tool for evaluating the technology transition operations
           within the S&T Directorate. This condition occurred because ONR did
           not conduct periodic command reviews to assess compliance with
           management control policy, ONR managers did not receive management
           control training consistent with their responsibilities and obligations, and
           ONR did not identify sufficient management controls to assess the
           transition of technologies. As a result, the ONR annual statements of
           assurance are not based on reliable assessments of the S&T process and
           did not adequately assess risks and controls.

Management Control Criteria
    The Office of Management and Budget Circular A-123, Revised, “Management
    Accountability and Control,” June 21, 1995, requires agencies to adequately
    document management control procedures and states:

           Agencies and individual Federal managers must take systematic and proactive measures
           to (i) develop and implement appropriate, cost-effective management controls for results-
           oriented management; (ii) assess the adequacy of management controls in Federal
           programs and operations; (iii) identify needed improvements; (iv) take corresponding
           corrective action; and (v) report annually on management controls.

    DoD Directive 5010.38, “Internal Management Control Program,” August 26,
    1996, requires DoD organizations to implement a comprehensive strategy for
    management controls that provides reasonable assurance that programs and
    administrative and operating functions are efficiently and effectively carried out
    in accordance with applicable law and management policy. The directive requires
    continuous monitoring and periodic evaluations that provide the basis for the
    annual statement about reasonable assurance. Management control objectives
    include executing functions properly; avoiding fraud, waste, and mismanagement;
    safeguarding assets; accounting for revenues and expenditures properly; and
    complying with laws and regulations.

    DoD Instruction 5010.40, “Management Control Program Procedures,”
    August 28, 1996, implements policy, assigns responsibilities, and prescribes
    procedures for management control programs. The Instruction provides guidance
    for determining materiality for management control weaknesses.

    SECNAV Instruction 5200.35D, “Department of the Navy Management Control
    Program,” December 10, 1997, requires that all Department of the Navy
    Components maintain effective management control systems and continually
    monitor and improve the effectiveness of controls chosen to be employed for their
    programs. Monitoring efforts should be documented and performance appraisal



                                             18
    systems should reflect any management control responsibilities,
    accomplishments, deficiencies, and corrective actions taken. Each Department of
    the Navy Component should establish criteria for scheduling evaluations of
    assessable units.

    ONR Instruction 5200.1B, “Office of Naval Research Management Control
    Program,” June 8, 2001, requires that all ONR Components maintain effective
    management control systems, and that all levels of ONR management establish
    controls, and the effectiveness of controls established for programs be continually
    monitored and improved. The Instruction assigns responsibility for an annual
    review of one-third of the corporate staff and departments to the Corporate
    Business Council.

ONR Management Controls
    Management controls need to be adequately designed, documented, and tested to
    provide assurance that command resources are used efficiently and effectively.
    The S&T departments did not identify sufficient management controls to meet the
    objectives of the management control process. In some instances, controls were
    not documented and, in others, controls were documented but could not be
    quantified.

    Management Controls Within the S&T Directorate. The ONR S&T
    Directorate comprises six departments; five departments are responsible for
    technology development, which is the focus of this review. Three of the five S&T
    departments used the same management control plan. All five S&T departments
    provided statements in FY 2001 that they had reasonable assurance that
    management controls were in place and operating effectively. Further
    examination disclosed that two of the S&T departments could not provide
    documentation to identify the management controls that they had monitored or
    tested. The three remaining S&T departments had documented management
    control plans used to derive their management control annual assessments.

    The standard management control plan is composed of four assessable units: plan
    and execute S&T programs, lead and leverage other S&T for the Department of
    the Navy, customer relations and transitions, and administrative support. The
    four assessable units have subcategories called controls that are used to measure
    management’s effectiveness in managing the assessable units. The controls
    identified by the S&T departments are provided, verbatim, in the table that
    follows.




                                        19
                                  ONR S&T Management Control Plan
     Assessable unit                     Management Control                     How Measured

1. Plan/Execute Science   a)   Attract best Principal Investigators for task    Judgment
   and Technology         b)   Ensure quality/innovation and state-of-the-art   Judgment
   Programs               c)   Balance of basic-applied-demo and risk           Judgment
                          d)   Ensure naval relevance                           Judgment
                          e)   Properly integrated/coordinated                  Judgment


2. Lead/Leverage Other    a) Attract best Program Officers and                  Judgment
   Science and               sustain/grow skills
   Technology for         b) Technological awareness at forefront(s)            Judgment
   Department of the      c) Interagency activities as leader                   Judgment
   Navy                   d) International activities as leader                 Judgment


3. Customer Relations     a) Requirements and needs interactions                Judgment
   and Transitions        b) Extrapolations based on science and                Judgment
                             technology potentials
                          c) Work the transitions                               Judgment
                          d) Marketing of science and technology "value-        Judgment
                             added"


4. Administrative         a) Inquiries (Congress, Freedom of Information        Review submittals
   Support Activities        Act, etc.)
                          b) Personnel actions and activities                   Judgment
                          c) Timekeeping                                        Review submittals
                          d) Science and technology awards process              Review submittals
                          e) Travel                                             Review submittals
                          f) Fiscal tracking                                    Review submittals
                          g) Management information systems                     Review submittals




Why Management Controls Need Improvement
        Need for Periodic Reviews by the Corporate Business Council. ONR
        Instruction 5200.1B, “Office of Naval Research Management Control Program,”
        June 8, 2001, assigns responsibility for reviewing compliance with management
        control policy to its Corporate Business Council. The Corporate Business
        Council is required to review one-third of the corporate staff and departments
        each year. The Corporate Business Council did not conduct any command
        reviews. If the Corporate Business Council had conducted reviews as required, it
        may have identified weaknesses in the ONR management control program. In
        addition, thorough reviews would have revealed that management controls were
        neither specific nor measurable.



                                                    20
    Appropriate Management Control Training for Key S&T Managers. ONR
    did not comply with DoD Directive 5010.38 and SECNAV Instruction 5200.35D
    requirements to provide training to managers, consistent with their management
    control responsibilities. An ONR management control official stated that each
    S&T department head was provided a briefing on management controls.
    However, the department heads were not provided formal training. ONR
    established an Internet web site for management control training, but the site
    serves more as a resource center than a training venue because personnel are
    allowed to self-certify training completion without demonstrating any
    comprehension of management controls.
    Management Controls for Transition of S&T Technologies. ONR identified
    just one management control that was specific to the transition of technologies.
    As shown in the preceding table of S&T management controls, ONR identified
    the technology transition effort within assessable unit number 3., “Customer
    Relations and Transitions.” The control identified with the technology transition
    effort is “Work the transition.” The assessment of this one identifiable control
    over technology transitions is completed by the judgment of the S&T officials.
    ONR can improve the management controls over technology transition by
    identifying additional controls that are quantifiable and measurable, such as:

       •   Establishing and keeping current memorandums of agreement or
           understanding, or technology transition agreements that include TRLs, exit
           criteria, transition timelines, and funding agreements for development and
           transitioning.

       •   Establishing and maintaining a working-level IPT charter that identifies
           the roles and responsibilities of the participating parties.

       •   Establishing a working-level IPT with the acquisition program manager
           and, as appropriate, the prime contractor.

       •   Recording, coordinating, and establishing agreement on the decisions,
           issues, and action items resulting from the working-level IPT meetings.

       •   Coordinating secondary transition paths.

Effect of Weaknesses Noted
    Until adequate management controls are identified and tested, ONR cannot
    determine with reasonable assurance that the S&T Directorate is operating
    efficiently and effectively.




                                        21
Recommendations, Management Comments, and Audit
  Response
    C. We recommend that the Chief of Naval Research,

           1. Require Science & Technology Department officials responsible for
    technology transition programs to identify and document appropriate
    management controls that are measurable and that will contribute to
    preparing the annual statement of assurance.

    Management Comments. The Deputy Assistant Secretary concurred and stated
    that ONR formed an S&T Performance Measurement Analysis Program,
    established performance measurement prototypes, convened a Working Group,
    conducted a study of vendors, and developed three web-based performance
    measurement prototypes for test and evaluation. Preliminary data had been
    collected and one of the metrics is transitioning.

    Audit Response. Although the Deputy Assistant Secretary concurred the
    comments do not address the intent of the recommendation to establish
    quantifiable and measurable assessable units. It is unclear how the processes
    described in the response affect the ONR S&T management controls that we
    reviewed. The table on page 20 represents the ONR S&T official management
    control program. The comments do not address the finding, the table, or the
    recommendation to modify the S&T management control program to include
    measurable controls. We request that ONR officials review the suggested
    improvements to the S&T management control program as discussed on page 21
    (establishing memorandums of agreement, technology transition agreements,
    establishing working-level IPT charters) and provide additional comments that
    address how the management control program, with measurable controls, will be
    used as a management tool to enhance technology transitioning.

          2. Direct the Corporate Business Council to conduct annual
    command reviews and use the review results as a basis for the Office of Naval
    Research annual statement of assurance.

    Management Comments. The Deputy Assistant Secretary concurred and stated
    that the ONR Corporate Business Council reviewed 59 of 138 ONR assessable
    units. The review results contributed to the ONR FY 2002 annual assurance
    statement. The reviews will continue contributing to future statements.




                                      22
       3. Provide management control training to the Science and
Technology officials, consistent with the requirements of DoD
Directive 5010.38.

Management Comments. The Deputy Assistant Secretary concurred and stated
that ONR will continue to provide training to managers consistent with their
responsibilities and obligations. ONR developed web-based management control
training in recognition of the need to have a means of delivery available on
demand. The Deputy Assistant Secretary stated that the web-based training is
augmented by assistance from the Management Control Coordinator when
needed, required, or requested.

Audit Response. The Deputy Assistant Secretary comments did not address the
intent of the recommendation. We were aware that the S&T officials received
personal briefings and, in some cases, completed the web-based management
control training. The comments restate the training program that existed during
the audit. Our discussions with S&T officials concerning the management control
program identified that the officials’ comprehension of management controls was
not consistent with their responsibilities and obligations, thus resulting in this
finding and recommendation. For example, one ONR official requested the
auditors to explain an assessable unit prior to discussing the management control
plan. This official reported a high confidence in controls in his annual report for
this assessable unit. In addition, only two of six S&T Department officials had
completed the web-based management control training. Management comments
do not identify any additional actions to be taken as a result of this finding that
would enhance the S&T officials’ understanding of management controls. We
request that the Navy provide additional comments to the final report discussing
how management control training will be improved to ensure that S&T officials
understand the program and their responsibilities and can use this knowledge to
develop quantifiable and measurable controls.




                                    23
Appendix A. Scope and Methodology
 Work Performed. We examined 39 S&T technologies at the ONR to evaluate
 the management process for transitioning successful technologies to the
 warfighter. The S&T technologies examined were funded with the advanced
 technology development budget activity within the Navy research, development,
 test and evaluation appropriations, and had a FY 2002 budget of $870.3 million,
 which includes $189.8 million in congressional increases. The FY 2003 budget
 request is $617.1 million.

 We conducted interviews with S&T and acquisition program officials, and
 examined applicable key documentation. Key documentation included guidance
 advocated by the Deputy Under Secretary of Defense for Science and
 Technology; FNC business plans; technology transition agreements; IPT meeting
 minutes where available; memorandums of understanding and agreement;
 acquisition program funding profiles; S&T management plans; technology
 transition paths or plans; and the research, development, test, and evaluation
 budget item justification sheet (R-2 Exhibit).

 We performed this audit from January 2002 through August 2002 in accordance
 with generally accepted government auditing standards with the exception of the
 scope limitations noted below.

 Limitations to Scope. We did not evaluate the technical merits of the S&T
 products. We limited the ONR management control review to the S&T
 management procedures and the departments responsible for transitioning
 technology from S&T community to the acquisition program managers or another
 technology area.

 Use of Computer-Processed Data. We relied on computer-processed data
 without performing tests of general and application system controls to confirm the
 reliability of the data. We relied on the Department of the Navy Science and
 Technology Program website, https://donst.nrl.navy.mil/donst/, and the
 computerized listing to represent the known universe of S&T products in the
 review of the management process. We validated the total funding for FY 2002
 on the computerized listing to the total funding under the advanced technology
 development budget activity within the Navy research, development, test, and
 evaluation appropriation. Validating the computerized listing to the
 appropriations was appropriate for this audit because the audit’s objective was to
 examine the management process for transitioning technology, not the individual
 S&T products. Further validation of the computerized listing would not change
 the conclusions in this report.

 General Accounting Office High-Risk Area. The General Accounting Office
 has identified several high-risk areas in the DoD. This report provides coverage
 of the Weapon System Acquisition high-risk area.




                                     24
Management Control Program Review
     DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
     and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
     August 28, 1996, require DoD organizations to implement a comprehensive
     system of management controls that provides reasonable assurance that programs
     are operating as intended and to evaluate the adequacy of the controls.

     SECNAV Instruction 5200.35D, “Department of the Navy Management Control
     Program,” December 10, 1997, requires that all Department of the Navy
     Components maintain effective management control systems and continually
     monitor and improve the effectiveness of controls chosen to be employed for their
     programs. ONR Instruction 5200.1B, “Office of Naval Research Management
     Control Program,” June 8, 2001, requires that all ONR Components maintain
     effective management control systems.

     Scope of the Review of the Management Control Program. We evaluated the
     management control process at ONR to determine whether effective management
     procedures were established to transition successful S&T projects to acquisition
     program managers and, ultimately, to the warfighter.

     Adequacy of Management Controls. We identified a material management
     control weakness for ONR as defined by DoD Instruction 5010.40. ONR
     management controls for technology transition within the S&T Directorate were
     not adequate to provide reasonable assurance that the transition effort had been
     executed efficiently and effectively. Recommendations C.1., C.2., and C.3., if
     implemented, will improve ONR management controls over the technology
     transition effort. A copy of the report will be provided to the Navy official
     responsible for management controls.

     Adequacy of Management’s Self-Evaluation. ONR officials identified
     technology transition with the S&T Directorate as part of an assessable unit.
     However, in its evaluation, ONR officials did not identify the specific material
     management control weaknesses identified by the audit because the ONR
     evaluation was too general and not measurable.

Prior Coverage
     During the last 5 years, the General Accounting Office has issued one report and
     the Inspector General of the Department of Defense has issued two reports
     discussing the benefits of adequately managing the challenges of transitioning
     technologies to warfighters.

General Accounting Office
     Report No. NSIAD-99-162, “Best Practices: Better Management of Technology
     Development Can Improve System Outcomes,” July 30, 1999



                                         25
Inspector General of the Department of Defense (IG DoD)
     IG DoD Report No. D-2002-107, “Army Transition of Advanced Technology
     Programs to Military Applications,” June 14, 2002

     IG DoD Report No. D-2002-146, “The Defense Advanced Research Projects
     Agency’s Transition of Advanced Information Technology Programs,”
     September 11, 2002




                                     26
Appendix B. Technology Readiness Levels and
            Their Definitions
The Deputy Secretary of Defense issued interim acquisition guidance on October 30,
2002. The interim guidance provided a matrix that lists technology readiness levels and
descriptions from a systems approach for both hardware and software as shown below.

 Technology Readiness Level                                          Description
1. Basic principles observed and          Lowest level of technology readiness. Scientific research begins to
reported.                                 be translated into applied research and development. Examples
                                          might include paper studies of a technology’s basic properties.
2. Technology concept and/or              Invention begins. Once basic principles are observed, practical
application formulated.                   applications can be invented. The applications are speculative and
                                          there may be no proof or detailed analysis to support the
                                          assumptions. Examples are limited to analytic paper studies.
3. Analytical and experimental            Active research and development is initiated. This includes
critical function and/or characteristic   analytical studies and laboratory studies to physically validate
proof of concept.                         analytical predictions of separate elements of the technology.
                                          Examples include components that are not yet integrated or
                                          representative.
4. Component and/or breadboard            Basic technological components are integrated to establish that they
validation in laboratory                  will work together. This is relatively “low fidelity” compared to the
environment.                              eventual system. Examples include integration of “ad hoc”
                                          hardware in a laboratory.
5. Component and/or breadboard            Fidelity of breadboard technology increases significantly. The
validation in relevant environment.       basic technological components are integrated with reasonably
                                          realistic supporting elements so it can be tested in simulated
                                          environment. Examples include “high fidelity” laboratory
                                          integration of components.
6. System/subsystem model or              Representative model or prototype system, which is well beyond
prototype demonstration in a              that of TRL 5, is tested in a relevant environment. Represents a
relevant environment.                     major step up in a technology’s demonstrated readiness. Examples
                                          include testing a prototype in a high fidelity laboratory environment
                                          or in a simulated operational environment.
7. System prototype demonstration         Prototype near, or at, planned operational system. Represents a
in an operational environment.            major step up from TRL 6, requiring the demonstration of an actual
                                          system prototype in an operational environment such as an aircraft,
                                          vehicle, or space. Examples include testing the prototype in a test
                                          bed aircraft.
8. Actual system completed and            Technology has been proven to work in its final form and under
qualified through test and                expected conditions. In almost all cases, this TRL represents the
demonstration.                            end of true system development. Examples include developmental
                                          test and evaluation of the system in its intended weapon system to
                                          determine if it meets design specifications.
9. Actual system proven through           Actual application of the technology in its final form and under
successful mission operations.            mission conditions, such as those encountered in operational test
                                          and evaluation. Examples include using the system under
                                          operational mission conditions.




                                                       27
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense for Science and Technology
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Navy
Assistant Secretary of the Navy (Research, Development, Acquisition)
  Chief of Naval Research
  Direct Reporting Program Manager, Advanced Amphibious Assault
Commander, Naval Air Systems Command
Commander, Naval Sea Systems Command
Commander, Space and Naval Warfare Systems Command
Commander, Marine Corps Systems Command
Naval Inspector General
Auditor General, Department of the Navy

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          39
Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Mary L. Ugone
Bruce A. Burton
Roger H. Florence
David H. Griffin
Rudolf Noordhuizen
Shavon M. Carter
Patrick M. Sampson
Jacqueline N. Pugh
